U.S. Department of the Interior
Office of Inspector General




            AUDIT REPORT


     MANAGEMENT OF HERD LEVELS,
   WILD HORSE AND BURRO PROGRAM,
    BUREAU OF LAND MANAGEMENT

             REPORT NO. 97-I-1104
                AUGUST 1997
             United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                     Washington, D.C. 20240


MEMORANDUM

TO:

FROM:




Attached for your information is a copy of the subject final audit report. The objective of the
audit was to determine whether the Bureau of Land Management was effectively managing
the herd levels and monitoring the health of wild horse and burro populations on public
lands. This is the second of three reports we are issuing on the Wild Horse and Burro
Program.

We determined that the Bureau had not achieved the appropriate management levels of wild
horse and burro herd populations on public lands. These levels are needed to maintain a
thriving natural ecological balance of the animals, as stated in the Wild Free-Roaming
Horses and Burros Act, as amended. Specifically, the Bureau had not been able to place
sufficient numbers of animals through its Adopt-A-Horse Program; was prevented from
disposing of excess healthy animals by legislative restrictions included in its appropriations
acts; and had not aggressively pursued other options for controlling herd sizes, such as
birthrate controls. As a result, approximately 15,226 more wild horses and burros were on
the range than the Bureau determined that the range could sustain at the end of fiscal year
 1996.

In addition, the Bureau was not monitoring and evaluating the health of the herds because
it did not have or establish requirements for performing this function. Because the Bureau
did not have appropriate information regarding the health of the herds, it could not properly
evaluate the effect decisions regarding Program operations had on the health of the animals.

Based on the Bureau’s response, we considered one of the report’s two recommendations
resolved but not implemented and requested additional information for the remaining
recommendation.

If you have any questions concerning this matter, please contact me at (202) 208-5745 or
Mr. Robert J. Williams, Assistant Inspector General for Audits, at (202) 208-4252.


Attachment
                                                                      C-IN-BLM-004-96(B)


             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                    Washington, DC. 20240




Memorandum

To:       Assistant Secretary for Land and Minerals Management

From:    Robert J. Williams
         Assistant Inspector General for

Subject: Audit Report on Management of Herd Levels, Wild Horse and Burro
         Program, Bureau of Land Management (No. 97-I-1104)

This report presents the results of our audit of the Bureau of Land Management’s
management of herd levels in the Wild Horse and Burro Program. This is the second of three
reports we are issuing on the Program. The first report, “Expenditures Charged to the Wild
Horse and Burro Program, Bureau of Land Management” (No. 97-I-375), dated February
1997, determined whether expenditures charged to the Program were used for Program
purposes. The Bureau requested that we perform that audit so that the results could be
included in the Bureau’s special task force report reviewing the Wild Horse and Burro
Program and the effect that drought conditions had on herd areas in Nevada. This audit was
initiated as part of our annual audit plan; however, because of Congressional interest, we also
reviewed Bureau information on the health of the wild horses and burros. The objective of
this audit was to determine whether the Bureau was effectively managing the herd levels and
monitoring the health of wild horse and burro populations on public lands. Our third report
will present the results of our review of the Bureau’s Adopt-A-Horse Program.

We determined that the Bureau’s Wild Horse and Burro Program has not achieved the
appropriate management levels of wild horse and burro herd populations. The Bureau must
achieve these management levels in order to maintain a thriving natural ecological balance
of the animals, as stated in the Wild Free-Roaming Horses and Burros Act of 1971, as
amended. Specifically, the Bureau had not been able to place sufficient numbers of animals
through its Adopt-A-Horse Program; was prevented from disposing of excess healthy
animals by legislative restrictions included in its appropriations acts; and had not
aggressively pursued other options for controlling herd sizes, such as birthrate controls.
Consequently, approximately 15,226 more wild horses and burros were on the range than the
Bureau determined the range could sustain at the end of fiscal year 1996.

In addition, the Bureau was not monitoring and evaluating the health of the herds. This
occurred because the Bureau did not have or establish requirements for performing this
function. Because the Bureau did not have appropriate information regarding the health of
the herds, it could not properly evaluate the effect decisions regarding Program operations
had on the health of the animals.

In the June 4, 1997, response (Appendix 5) to the draft report from the Director, Bureau of
Land Management, the Bureau concurred with the recommendations that it should
implement a plan which details the methods and costs for achieving appropriate management
levels for wild horses and burros on public lands and that it should establish requirements
to collect and analyze comprehensive data on the health of wild horse and burro herds on
public lands. Specifically, in response to Recommendation 1, the Bureau stated that it had
“successfully maintained a schedule for achieving AML’s [appropriate management levels],
. . . by the year 2001 ," as documented in its Strategic Plan. In that regard, the Bureau’s
Strategic Plan stated that the appropriate management level would be reached in “6 years”
(or 1998), not 2001. However, in our opinion, the Bureau’s statistics on herd population,
removals of animals, and estimated growth of the herds do not support the Bureau’s
statement that it will reach the appropriate management level by 2001. The Bureau also
stated that it has “actively pursued” research concerning the effects of its selective removal
policy and to develop a birth control technology that is “safe and effective.” In response to
Recommendation 2, the Bureau stated that procedures would be initiated for collecting and
recording data regarding the physical condition of wild horses and burros for the fiscal year
1998 gathering season (which begins on October 1, 1997).

On June 24, 1997, a conference was held at the Bureau’s request to discuss its response to
Recommendation 1. Based on the conference and additional information provided, changes
were made to the final report as appropriate. Additionally, the Bureau noted actions that it
had taken or planned to take in response to Recommendation 1 as follows: (1) the Wild
Horse and Burro Advisory Board would review the Strategic Plan to determine what
revisions were necessary; (2) approximately 10,000 animals per year would be removed for
the next 5 years (according to the Bureau, the Congress appears to be responsive to providing
the additional appropriations necessary); and (3) the agreement to study the effects of the
selective removal policy has been signed with the University of Nevada-Reno.

Based on the Bureau’s response, additional information is needed for Recommendation 1,
and Recommendation 2 is considered resolved but not implemented (see Appendix 6).
Accordingly, the unimplemented recommendation will be referred to the Assistant Secretary
for Policy, Management and Budget for tracking of implementation.

In accordance with the Departmental Manual (360 DM 5.3), we are requesting a written
response to this report by September 21, 1997. The response should provide the information
requested in Appendix 6.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Bureau of Land Management personnel in the conduct of our
audit.
                                                  CONTENTS

                                                                                                                         Page

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1

       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1
       OBJECTIVE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              3
       PRIORAUDITCOVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 3
       OTHERREVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      4

FINDINGANDRECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

       MANAGING HERD POPULATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

APPENDICES

       1. WILD HORSE AND BURRO POPULATIONS . . . . . . . . . . . . . . . . . . . . .                                     14
       2. WILD HORSE AND BURRO PROGRAM EXPENDITURES . . . . . . . . . .                                                  15
       3. WILD HORSE AND BURRO POPULATION HISTORY . . . . . . . . . . . . .                                              16
       4. WILD HORSE AND BURRO POPULATIONS AND APPROPRIATE
            MANAGEMENT LEVELS BY STATE . . . . . . . . . . . . . . . . . . . . . . . . . .                               17
       5. BUREAU OF LAND MANAGEMENT RESPONSE . . . . . . . . . . . . . . . . .                                           18
       6. STATUS OF AUDIT REPORT RECOMMENDATIONS . . . . . . . . . . . . . .                                             23
                                     INTRODUCTION

BACKGROUND

The Wild Free-Roaming Horses and Burros Act of 1971, as amended (16 U.S.C. 133 l-1340),
authorized and directed the Secretary of the Interior to manage and protect wild free-roaming
horses and burros as components of the public lands. Further, the Act stated that the
Secretary “shall manage wild free-roaming horses and burros in a manner that is designed
to achieve and maintain a thriving natural ecological balance on the public lands” while also
recognizing multiple-use management of the public lands. A thriving ecological balance, as
defined by the Congress, is the “balance between wild horse and burro populations, wildlife,
livestock and vegetation.” Additionally, the Act states:

       Where the Secretary determines . . . that an overpopulation exists on a given
       area of the public lands and that action is necessary to remove excess animals,
       . . . he shall immediately remove excess animals from the range so as to achieve
       appropriate management levels. . . . The Secretary shall order old, sick, or
       lame animals to be destroyed in the most humane manner possible . . . The
       Secretary shall cause such number of additional excess wild free-roaming
       horses and burros to be humanely captured and removed for private
       maintenance and care for which he determines an adoption demand exists. . .
       The Secretary shall cause additional excess wild free-roaming horses and
       burros for which an adoption demand by qualified individuals does not exist to
       be destroyed in the most humane and cost efficient manner possible.

The Act also authorizes the Secretary to contract for research in controlling animal
populations through the development of birthrate controls, such as a contraceptive vaccine.

Although authorized by the Act, the Congress has prevented the Bureau from destroying
excess healthy unadopted animals by stating, in the Department of the Interior’s annual
appropriations acts, that “appropriations herein shall not be available for the destruction of
healthy unadopted wild horses and burros in the care of the Bureau of Land Management or
its contractors.”

The primary focus of Bureau activities under the Wild Horse and Burro Program has been
the removal and the placement of excess wild horses and burros with private individuals and
                                                              1
organizations through the Bureau’s Adopt-A-Horse Program. As of September 1996, the



1
 The Bureau’s Adopt-A-Horse Program is a popular program established in May 1976 that places wild horses
and burros removed from public lands into private care. When the Program was first established, there were
no provisions to pass title for the animals to the adopters.

                                                    1
Bureau reported that it had placed approximately 148,000 animals in private care through the
Program.

As determined by the Bureau, the number of excess wild horses and burros on public lands
is the difference between the actual populations and the appropriate management levels. The
Bureau determines the appropriate management levels of wild horses and burros on public
lands through monitoring available forage and estimating the numbers of animals, such as
wild horses, other wild animals, cattle, and other livestock, that can be supported by the
forage. In an attempt to control the herd levels, the Bureau removed about 165,000 excess
wild horses and burros from public lands during 1973 through 1996.2 However, the Bureau
estimated that about 42,100 wild horses and burros, including about 15,200 excess animals,
were in herd management areas on public lands in 11 western states as of the end of fiscal
year 19963 (Appendix 1).

During 1992 through 1996, the Bureau expended an average of about $15.6 million per year
of appropriated funds on the Wild Horse and Burro Program: $6.5 million on Program
management, $2.6 million on the removal of wild horses and burros from public lands, and
$6.5 million on adoption activities. (The expenditures for fiscal years 1992 through 1996
are detailed and described in Appendix 2.) In addition to the appropriated funds, the Bureau
was authorized by the Act to collect and retain adoption fees. These fees, which have
averaged about $780,000 per year, were used by the Bureau to defray the costs of
transporting animals among preparation, maintenance, prison, sanctuary, and adoption
facilities.

In 1992, the Bureau formalized its Strategic Plan for Management of Wild Horses and
Burros on Public Lands. The Plan provided the mission statement, goals and objectives,
assumptions, and a proposed action plan for the Program. The Plan called for the removal
of all excess animals to reduce the herd populations to appropriate management levels within
6 years (by 1998). However, at the 1994 Senate appropriations hearings, the Bureau reported
that it would take 3 to 4 additional years (by 2002) to reach the appropriate management
levels. The Plan also established goals for the number of animals to be removed from public
lands each year. The Bureau determined that, as of the end of fiscal year 1996, the
appropriate management level of wild horses and burros on public lands was about 26,9 10.




20f the 165,000 horses and burros removed, approximately 148,000 were placed in private care, and the
remaining 17,CKKl were, according to a Bureau official, put into sanctuaries or holding areas. died of natural
causes, or were sick or lame and were subsequently destroyed by the Bureau.

3A herd area is the geographic area identified as having provided habitat for a herd in 197 1. A herd
management area is a herd area identified in a management framework or resource management plan for the
long-term management of a wild horse or burro herd.

                                                      2
      - “Memorandum of Understanding Relating to the South Dakota Wild Horse
Sanctuary, Bureau of Land Management” (No. 92-I-543), issued in March 1992, concluded
that the Bureau made payments of $95,000 for services that were not the Bureau’s
responsibility; approved a basic rate increase for horse care that was not justified; and lost
the opportunity to save $800,000 by not evaluating alternative offers for horse care. The
report additionally stated that the sanctuary had not achieved financial self-sufficiency. The
report’s four recommendations were considered resolved and implemented.

      - “Selected Aspects of the Wild Horse and Burro Program, Bureau of Land
Management” (No. 94-I-585), issued in May 1994, stated that it was not cost effective to
maintain the Oklahoma Wild Horse Sanctuary. The report recommended that the Bureau
evaluate other options for the sanctuary horses, including returning the horses to the public
lands and closing the sanctuary, since most of the sanctuary horses were old and
unadoptable. The Bureau concurred with the recommendation but offered an alternative
solution. Specifically, the Bureau decided to develop and implement an adoption initiative
for the animals in the sanctuary, which had been successful in the Bureau’s Montana State
Office in 1992 in that over 500 sanctuary animals from South Dakota had been adopted.
Subsequently, the Bureau reduced the number of horses at the sanctuary from 1,569 in 1994
to 1,143 in March 1996. Reports from the sanctuary contractor disclosed that the reduction
of 433 horses was due to 236 adoptions and 197 deaths.

      - “Expenditures Charged to the Wild Horse and Burro Program, Bureau of Land
Management” (No. 97-I-375), issued in February 1997, concluded that the Bureau had
recorded and generally spent funds for Program purposes in accordance with its accounting
procedures. However, the Bureau inaccurately classified certain indirect salaries and other
expenditures as direct costs in its financial records. As a result, reported salary and other
expenditures indicated that more direct work was accomplished for the Program than may
have actually occurred. The Bureau concurred with the report’s two recommendations.

OTHER REVIEW

On January 29, 1997, the Bureau of Land Management issued the report “Wild Horse and
Burro Evaluation” of the Wild Horse and Burro Emergency Evaluation Team. The Team
was composed of Federal and state officials, with contributions from advisors from a
university, wild horse advocacy groups, a cattlemen’s association, former Bureau
employees, and local government officials. The Team was convened by the former Director
of the Bureau of Land Management in response to concerns expressed by interest groups, the
public, and Bureau employees about the effects that a prolonged drought had on areas of
Nevada, Utah, and Arizona. The drought reduced the amount of forage and water available
to the animal populations in those areas. The report presented findings and recommendations
regarding the Wild Horse and Burro Strategic Plan, organizational considerations,
management oversight and accountability, the Wild Horse and Burro Advisory Council, herd


                                              4
management area designations, appropriate management levels, the selective removal policy,
adoption, and the Nellis (Nevada) Wild Horse Range. The Team’s report contained about
34 recommendations that addressed issues relating to the emergency drought situation and
proposed guidance for the long-range direction of the Program. The Interim Director
concurred with the recommendations and instructed Bureau personnel to “move
immediately” to implement these recommendations under the general direction of the
Assistant Director for Renewable Resources and Planning. The Interim Director stated, “We
have already initiated some actions recommended by the team. For example, responsibility
for wild horse and burro operations is being reassigned, effective today [January 29, 19971,
from Nevada BLM [Bureau of Land Management] to the BLM Headquarters in Washington,
D.C.” The Interim Director also stated, “Implementing the recommendations set forth in the
Emergency Evaluation Team’s report, and taking the other actions I have detailed, are the
first in a series of measures we are taking to improve the operation and management of the
Wild Horse and Burro Program.”




                                             5
                FINDING AND RECOMMENDATIONS

MANAGING HERD POPULATIONS

The Bureau of Land Management’s Wild Horse and Burro Program has not achieved the
appropriate management levels of wild horse and burro herd populations. The Bureau must
achieve these management levels of the herds in order to maintain a thriving natural
ecological balance between the needs of the herds and other wildlife and livestock and the
resources available on the lands to provide for these needs. The Wild Free-Roaming Horses
and Burro Act of 1971, as amended, states that the Secretary “shall determine appropriate
management levels of wild free-roaming horses and burros and determine whether
appropriate management levels should be achieved by the removal or destruction of excess
animals or other options (such as sterilization or natural controls on population levels).”
However, the Bureau has not been able to place sufficient numbers of excess animals through
its Adopt-A-Horse Program; was prevented from disposing of excess healthy animals by
restrictions included in its appropriations acts; and needed to more aggressively pursue other
options for controlling herd sizes, such as birthrate controls. As a result, approximately
15,226 more horses and burros were on the range than the appropriate management level that
the Bureau determined the range could sustain at the end of fiscal year 1996. In addition, the
Bureau was not systematically monitoring the health of the herds. This occurred because
the Bureau did not have or establish requirements for performing this function. Because the
Bureau did not have appropriate information regarding the health of the herds, it could not
evaluate the effect decisions regarding Program operations had on the health of the animals.

The Bureau’s Strategic Plan for management of wild horses and burros on public lands,
which was formalized in 1992, has not resulted in the Bureau’s reaching appropriate
management levels. One of the objectives in the Strategic Plan was adjusting population
levels to reach appropriate management levels by 1998. Since fiscal year 1986, when
appropriate management levels were first established, the number of excess wild horses and
burros has increased. Specifically, 14,605 wild horses and burros were over the appropriate
management level of 30,158 (48.4 percent excess) at the end of fiscal year 1986 and 15,226
wild horses and burros were over the appropriate management level of 26,912 (56.6 percent
excess) at the end of fiscal year 1996, although 88,214 excess horses and burros were
removed from fiscal years 1986 through 1996. During this time frame, the number of wild
horses and burros on public lands exceeded the appropriate management levels by an average
of about 58 percent. (The wild horse and burro populations, management levels, and excess
numbers for fiscal years 1986 through 1996, as reported by the Bureau, are presented in
Appendix 3 .)




                                              6
Achieving Appropriate Management Levels

The Bureau establishes appropriate management levels of wild horses and burros to maintain
the natural ecological balance on public lands.4 To establish these levels, the Bureau
conducts field surveys of the land used by wild horses and burros. These surveys collect data
on the type of forage available to the horses and burros, the condition of the rangeland, and
the other uses of the land by domestic livestock and wildlife. From this information, the
Bureau determines the number of all types of animals that the rangeland can sustain and the
number of wild horses and burros that must be removed from the range. To accomplish the
goal of adjusting wild horse and burro population levels, the Bureau is authorized by the
governing legislation to place wild horses and burros in an adoption program; destroy, in
the most humane and cost-efficient manner possible, those excess wild horses and burros for
which an adoption demand by qualified individuals does not exist; and develop and use
birthrate controls to slow the growth of the herds. However, the Bureau has been limited in
the actions it could take under each of these options, as described in the following
paragraphs.

Adopt-A-Horse Program

The Adopt-A-Horse Program has not been able to place all of the excess animals. Some of
the animals gathered during “roundups” were unadoptable because of age or physical defects.
In 1988, as a means of providing for horses that were gathered but not placed through the
adoption program, the Bureau established the first of three wild horse sanctuaries for
unadoptable horses. However, the sanctuaries were not cost effective as a long-term solution
for handling the excess horses that were unadoptable. Consequently, in fiscal year 1993, the
Bureau implemented a selective removal policy for wild horses which was designed to gather
horses that were more adoptable. Under the selective removal policy, only horses through
                                                                        5
5 years of age and without defects were removed from the herd areas. For horses outside
herd areas, the Bureau could remove horses that were 9 years of age and younger for
adoption.     This policy was implemented by the Bureau because it found that younger
animals were more attractive to potential adopters. However, the average annual
reproduction rates of the herds (approximately 18 percent) have been at least equal to the
Bureau’s annual rates for removal and adoption of wild horses and burros. As such, the
Bureau’s Adopt-A-Horse Program has not resulted in achieving appropriate management
levels of the animals on a nationwide basis by sufficiently reducing the number of excess


4We did not examine the Bureau’s process for establishing appropriate management levels because this
examination would have required a review of other Bureau programs, such as grazing allotment and land use
planning, which were outside the scope of this audit.
5
 Because of the difficulty in reaching appropriate management levels, the Bureau issued, in fiscal year 1996,
instructions changing the age criterion under the selective removal policy for animals within herd areas and
herd management areas from 5 years and younger to 9 years and younger.

                                                     7
horses and burros on public lands. In addition, the selective removal policy was not based
on any scientific evidence of the effects the policy would have on the growth rates or on the
genetic diversity of the herds (see section “Health of Wild Horses and Burros”).

Legislative Restrictions

The Wild Free-Roaming Horses and Burros Act allows the Bureau to destroy excess horses
and burros for which an adoption demand does not exist. However, the Bureau has been
precluded from taking this action because, since fiscal year 1988, the Department of the
Interior’s annual appropriations acts have stated, “Appropriations herein made shall not be
available for the destruction of healthy, unadopted, wild horses and burros in the care of the
Bureau of Land Management or its contractors.” As a result, the Bureau can only destroy
sick or lame excess animals. However, even this action has been limited, according to
Bureau and Departmental officials, because of concerns expressed by horse advocates.

Birthrate Controls

The Bureau needed to more aggressively pursue other options, such as birthrate controls, to
slow the growth of the herds. Bureau officials said that since wild horses and burros will
reproduce at a rate, conservatively, of about 18 percent per year, populations will double
about every 4 years. The Bureau began to study the idea of birthrate controls of wild horse
and burro populations in 1985. Bureau officials told us that the early tests found that mare
contraception was an effective means of birth control. In 1992, the Congress directed the
Bureau to support additional research of a contraceptive vaccine to control wild horse
reproduction and to undertake a pilot project in Nevada to evaluate the use of birthrate
controls. The goal of the project was to develop and test a contraceptive vaccine for the
horses that would have a l- to 3-year period of effectiveness. The project was conducted
through a cooperative agreement with the University of Nevada in Reno, Nevada, and
resulted in the development of a reversible vaccine that was field tested in one Nevada herd
area in 1992. The final report for the field study portion of the project (for the period of
December 1992 through December 1994) was issued by the University on January 24,1995.
The report stated that in the first year after vaccination, 95.5 percent of the vaccinated mares
did not get pregnant, as compared with 45 percent of a control group of unvaccinated mares
from the same herd that did not get pregnant. Bureau officials also stated that they were not
aware of any reported safety problems with the vaccine.

The pilot project to develop the vaccine was funded with $653,4 13 (provided by the former
National Biological Service) under an assistance agreement with the University of Nevada-
Reno and the Humane Society of the United States. The project, initiated in 1992, was
recently modified and extended through 1997 with additional funding totaling $200,000.
However, as of February 4, 1997, the Bureau had not approved the contract for the
continuing project, which has resulted in at least a 6-month delay in the project, according

                                               8
to a research official. The funds will be used for the field application of the remaining
contraceptive vaccine and for studies on the effects of the vaccine on the population. Bureau
officials said that there is sufficient remaining vaccine to inoculate about 1,000 mares during
the extended pilot program. Bureau officials also said that the Bureau has no plans to use its
own appropriated funds to supplement the pilot project or to develop more vaccine.

Although effective, the vaccine has not been approved for commercial use by the Food and
Drug Administration. Bureau officials stated that the vaccine has not been approved for
commercial use because a determination is needed as to whether the food chain will be
adversely affected by the vaccine. A research scientist working under the Biological Service
assistance agreement stated that, as of February 1997, the approval of the vaccine will take
approximately 2 more years.

We believe that the Bureau should be more aggressive in its study of the use of the
contraceptive vaccine and seek expedited approval from the Food and Drug Administration
because the use of contraception to slow the birthrate of wild horses and burros on public
lands, combined with removing excess animals and placing them through the Adopt-A-
Horse Program, would be a more effective strategy than using only the Adopt-A-Horse
Program.

Based on its historical removal rates, the Bureau cannot reach appropriate management
levels. The Bureau has reduced the number of excess animals over the last 5 years by
removing and placing an average of approximately 7,900 animals each year. However,
assuming an estimated growth rate of 18 percent per year and the population of 42,138
animals at the end of fiscal year 1996, the Bureau would be able to keep pace only with the
annual growth rate of about 7,600 animals and would not be able to significantly reduce the
excess 15,226 animals on public lands.

Health of Wild Horses and Burros

The Bureau did not systematically maintain records that documented the prior or current
condition of animals on the land, and the Bureau had not performed studies to evaluate the
overall health of the wild horses and burros. This occurred because neither the Act nor
Bureau regulations require the Bureau to maintain records or perform studies on the health
of the herds. Therefore, the Bureau had no documentation evidencing the effect that its
policies for the Wild Horse and Burro Program had on the health of the herds. For example,
the Bureau developed a selective removal policy in response to the imbalance between the
number of excess animals and the demand by adopters. Although this policy emphasized the
removal of the younger and more adoptable animals, the Bureau had little or no scientific
evidence of the effects this policy would have on the health of the herds. According to a
Bureau official, maintaining genetic diversity helps to ensure that in-breeding and disease
problems, including recessive genes which can cause blindness and other disorders, are


                                               9
prevented.     The Emergency Evaluation Team report stated, “In some instances, this
[selective removal] policy has skewed age or sex ratios in some herds, which if continued
in the long-term, could harm the viability of the herd.” Also, an internal review, conducted
in Utah in 1995 by the Bureau, noted that there is “anecdotal evidence” that genetic defects,
which negatively impact survival, are becoming more common in some isolated herds in
Utah. We believe that the Bureau should document the health conditions of wild horses and
burros under its protection so that it has data on which to evaluate the effects of its decisions
on the Program.

Recommendations

We recommend that the Director. Bureau of Land Management:

   1. Implement a plan which details methods and costs for achieving appropriate
management levels for wild horses and burros on public lands. At a minimum, the plan
should address:

       - The development of a removal policy, supported by sufficient data, which will
remove excess wild horses and burros without adversely affecting the health of the herds that
remain on public lands.

       - The use of birthrate controls, including an aggressive plan to complete testing and
obtain expedited approval for the contraceptive vaccine, as a method to reduce future excess
wild horse and burro populations.

    2. Establish requirements to collect and analyze comprehensive data on the health of the
wild horse and burro herds on public lands and ensure that this information is considered in
making Program decisions.

Bureau of Land Management Response and Office of Inspector General
Reply

In the June 4,1997, response (Appendix 5) from the Director, Bureau of Land Management,
the Bureau concurred with both recommendations.               Based on the response,
Recommendation 2 is considered resolved but not implemented, and additional information
is needed for Recommendation 1 (see Appendix 6).

Recommendation 1. Concurrence.

    Bureau of Land Management Response. The Bureau stated that, although the
appropriate management levels had not been achieved on all herd management areas, most
herds in Colorado, Idaho, Montana, New Mexico, and Oregon were at or near the desired

                                               10
populations. The Bureau also stated that it had adopted a Strategic Plan in 1992, which
included a 9-year plan to achieve appropriate management levels, and that since 1992, while
operating under the Plan, it had “steadily reduced” the percentage of excess animals each
year. Further, the Bureau stated that, while the appropriate management levels had decreased
from 28,527 to 26,912, the estimated population had decreased from 54,804 to 42,138 (from
about 92 percent excess to 56 percent excess).

The Bureau also noted that the Wild Horse and Burro Emergency Evaluation Team
reviewed the procedures for establishing the appropriate management levels and made
recommendations which included: (1) establishing the levels by using the best available data
with full disclosure and public participation through the National Environmental Policy Act;
(2) defining levels for herd management areas as a single number with an acceptable range;
and (3) reviewing and updating the Strategic Plan to include these recommendations.

The Bureau also stated that it supports and is actively pursuing additional research to gain
a “better scientific understanding” of any effects the policy of selective removal may have
on the health of the herds. However, the Bureau noted that the policy was developed to
address the issue of unadoptable animals without killing “healthy-but-unadoptable” animals
or spending public funds to maintain thousands of unadoptable animals in Federal
sanctuaries. The Bureau stated that “selective removal is based on the assumption that the
best way to deal with unadoptable animals would be to let them remain on the range” and
that “both field experience and population modeling have indicated that the policy of
selective removal does not prevent wild herds from reproducing successfully and
maintaining their populations.” Nevertheless, the Bureau said that it is working with the
University of Nevada-Reno to initiate a study that assesses the impacts the selective removal
policy “might have on herd population dynamics.”

The Bureau further stated that it has “actively pursued” research to develop a birth control
technology which is “safe and effective, long lasting, easy to administer, cost effective, and
has public acceptance.” The Bureau also said that it had achieved all of the goals except for
“multi-year efficacy” and that it will begin to implement field management trials in fiscal
year 1998 of the 1-year single injection while continuing research efforts to develop a single
injection, multiyear formula. Also, the Bureau stated that it is “convinced that contraceptive
vaccines can serve as a major, cost-effective tool” for maintaining appropriate management
levels but that even with the use of immunocontraceptive vaccines, it anticipates “a positive
growth” in many herds which will still require gathers and adoptions, “although at reduced
levels.” The Bureau stated that it, and more recently the National Biological Service, has
 “supported directly” the effort to “research and develop an effective . . . vaccine.” The
Bureau said that it is working directly with the Ohio Medical College on fertility research,
with the research portion of the funding coming from the Biological Service (now the
Biological Service Division of the U.S. Geological Survey) and funds for field
implementation of the research coming from the Bureau. The Bureau also noted that it had


                                              11
recently announced the formation of a new Wild Horse and Burro Advisory Board, which
“will assist [the Bureau of Land Management] in meeting this recommendation.”

      Office of Inspector General Reply. Although the Bureau concurred with this
recommendation, it primarily addressed its past and current program actions, which, as stated
in our report (page 9), will not result in the Bureau’s achieving appropriate management
levels by the year 2001. As stated in our report (page 9), the Bureau, using current trends,
is removing an average of 7,900 animals per year, as compared to an estimated growth of
7,600 animals per year. An estimated net removal of 300 animals per year will not
significantly reduce the estimated 15,226 excess animals by the year 2001.

At our June 24, 1997, conference, Bureau officials agreed that the Bureau’s historical
removal rates of approximately 7,900 animals would be insufficient to achieve appropriate
management levels by 2001. At the conference, these officials also told us that the Bureau
planned to increase removals and subsequent adoptions to 10,000 animals per year. In that
regard, the Bureau stated that in order for the increased level of removals and adoptions to
succeed, the Bureau must be supported by an increase in its use of volunteers in the Adopt-
A-Horse Program. However, we are concerned that the Bureau will not be able to
administer such an increased level of removals and that there may not be an annual adoption
demand for 10,000 animals. We base these concerns on the Bureau’s past experience when
it increased removal levels from 1985 to 1987. The Bureau could not place all of the animals
through its adoption program. As a result, it was forced to establish sanctuaries, which were
expensive to maintain, to care for these excess unadopted animals. In addition, during the
conference, the Bureau did not offer any contingency plan for handling the excess
unadoptable animals that may result when it increases its removal level to 10,000 animals
per year.

The Bureau stated that five states are at or near the appropriate management levels. However,
these states represent only 8 percent of the wild horse and burro populations on public lands,
and as shown in Appendix 4, only two of these states are below the desired populations,
while the remaining three states are 40 to 79 percent above the desired populations.

The Bureau stated that it had reduced the estimated population from 54,804 animals in 1992
to the current level of 42,138. Although the Bureau said that it had “steadily reduced” the
population levels, according to its statistics, the major reduction occurred in 1993, when it
reduced the estimated population from 54,804 to 46,462, or by 8,342 animals, in that year
(see Appendix 3). In contrast, the Bureau’s “Summary of Wild Horse and Burro Removals
and Adoptions,” dated January 26, 1996, showed that 8,545 animals were removed during
 1993. Therefore, the calculated growth level for all herds during 1993 was only 203 animals
(8,545 animals removed less 8,342 reduction in population) as opposed to the average
reproductive rates of 18 percent per year, or about 7,600 animals. Consequently, this drastic
reduction in the growth rate appears to indicate that the Bureau’s population statistics were
inaccurate. Also, the Bureau’s Strategic Plan stated that the appropriate management level

                                              12
would be reached in 6 years from the date that the Plan was implemented, or in 1998, not
in 2001, as stated in the Bureau’s response.

We commend the Bureau and its Wild Horse and Burro Emergency Evaluation Team for
their efforts, including initiating studies of the selective removal policy and placing increased
emphasis on the animal birth control measures. The Bureau correctly noted in its response
that the selective removal policy was implemented to address the issue of unadoptable wild
animals. However, the policy did not give proper consideration to the effects that the policy
might have on the genetic diversity of the animals remaining on public lands, for which the
Bureau has management responsibility under the Act. The Bureau’s statement that the
selective removal policy has not affected the reproductive rate of the herds and has not
prevented herds from maintaining their populations does not consider the genetic diversity
of the animals born into the herds. Regarding animal birth control measures, we believe that
the Bureau should also consider using its appropriated funding to expand the field testing of
the new vaccine and seek expedited approval of the vaccine from the Food and Drug
Administration. This approach would be a more aggressive effort in developing and
implementing a contraceptive vaccine.

Regarding our comments on the Bureau’s internal review which noted that genetic defects
are becoming more common in some isolated herds in Utah, we did not assert that these
defects were caused by the selective removal policy but presented this as another example
of why the Bureau needs to monitor the health of the herds.

The Bureau did not respond adequately to the formulation of a plan, including methods and
costs, to achieve the appropriate management levels. We believe that the Bureau should
consider revising its plan because, in our opinion, the Bureau will not reach the desired
population by the year 2001 under its current approach. Therefore, we request that the
Bureau provide additional information on the actions it plans to take, as indicated during the
June 24, 1997, conference, including target dates and titles of officials responsible for
implementation.




                                               13
                                               APPENDIX I




    Wild Horse and Burro Populations
         (Estimated at 9130196)




                                      Horses      35,286
                                      Burros       6,852
                                      Population 42.138




                   New Mexko
                       H -70




Key: H - Number of Horses; B - Number of Burros
Alaska has no horse or burro populations.




                      14
                                                                                    APPENDIX 2

           WILD HORSE AND BURRO PROGRAM EXPENDITURES


                         1992          1993          1994          1995         1996         Total

Program Management    $5,7 17,000   $6,799,800     $7,859,200   $7,189,500   $5,749,100   $33,314,600

Removal                2,057,OOO     3,189,300      2,532,100    3,472,300    6,321,100    17,571,800

Adoption               6.802.000     5.938.100      6.227.100    5.858.900    3.779.100    28.605.200

 Total               $14.576.000 $15.927.200 $16.618.400 $16.520.700 $15.849.300 $79.491.600




                                       Program Management

Program management expenditures include costs of managerial direction, policy and program
development, training, office operations, personnel transfers, development of wild horse population
and range data, research and development, environmental planning work, herd management area
planning, monitoring, and project development.

                                                 Removal

Removal costs include those associated with capturing and transporting animals to facilities where
they are prepared for distribution or relocation to other areas of public land; capturing, sorting, and
removing excess animals; and destroying old, sick, and lame animals in the field. Removal costs also
include planning animal removals; conducting site analyses; designing, constructing, and maintaining
capture facilities; performing capture and relocation operations; and destroying animals.

                                                 Adoption

Adoption costs include those for animal disposition, titling, and complying with laws and regulations
related to the public’s actions in connection with the adoption of wild horses and burros. Animal
disposition includes feeding, testing, treating, marking, and transporting animals; planning,
publicizing, conducting, and evaluating disposal activities; and designing, constructing, and
maintaining distribution facilities.




                                                    15
                                                                          APPENDIX 3
                                   WILD HORSE AND BURRO*
                                    POPULATION HISTORY -
                              FIS ClAL YEARS 1986 THROUGH 1996

                POPULATION          APPROPRIATE          EXCESS ON      PERCENT OF
YEAR             ON PUBLIC          MANAGEMENT          PUBLIC LANDS      EXCESS
                   LANDS               LEVEL

 1986       I      44,763

 1987       I      43,286



                                       30,646              15,903             51.89
 1990       I      45,541              30,607               14,934            48.79
 1991       I      50,697              29,797              20,900             70.14

 1992       I      54,804              28,537              26,267             92.05
 1993       I      46,462              27,737              18,725             67.5 1

 1994       I      42,410              26,334               16,076            61.05
 1995       I      43,593              27,153               16,440            60.55

 1996       I      42.138              26,912               15,226            56.58




20,000           I                I      I                                      I
     1966       1987   1988     1989    1990 1991        1992 1993     1994   1995     1991
                                                YEARS


                       Population               - -        Management Level



*Source: Bureau of Land Management.

                                                16
                       Wild Horse and Burro Populations and
           Appropriate Management Level by State as of September 30, 1996
  30000
  25000                                        348-l


E 20000
32 15000                                           4206   1


n" 10000
V
    5000
       0
              AZ     CA     CO    ID    MT     NV             NM   OR   UT   WY
                                         (States)


       Estimated Population                   Appropriate Management Level
                                                                                 APPENDIX 5
                 LXtc.d Sr:m-s Department of the Interior Page 1 Of 5


                                                                              In Reply Refer To:
                                           June 3, 1997                               1245 (220)


                                       MEMORANDUM

To:           Assistant Inspector General of Audits

Through:   Bob Armstrong
      fps Assistant Secretary, Land and Minerals Mana
Ba@
From:    Go%irector, Bureau of Land

Subject:      Response to the Office of Inspector General’s Draft Report on “Management
              of Herd Levels. Wild Horse and Burro Program. Bureau of Land Management,”
              Report No. C-IN-BLM-004-96b, April 1997

Thank you for the opportunity to respond to the draft audit report on the management of herd
levels in the Wild Horse and Burro Program. Our specific response to your recommendations
is attached.

As you are aware. the Bureau of Land Management (BLM) is responsible for the
management and care of some 42,000 federally protected, free-roaming wild horses and
burros on the western public rangelands. It gathers thousands of animals each year to balance
the number of animals with available forage and water, and offers the excess animals for
adoption to people who commit to providing them with good homes.

We recognize that this highly controversial program has its shortcomings, as you have
identified in the draft audit report, such as difficulty in the placement of gathered animals, the
lack of an effective birthrate control system, and the need for a further understanding of herd
population dynamics. However, during the past 5 years, we have made meaningful progress
in establishing appropriate management levels (AMLs), reducing overpopulated herds to
within their AML, and finding homes for those animals that have to be removed from the
rangelands. Our goal is to reach AMLs Bureauwide within the next 4 years while ensuring
that all animals removed from the rangelands are properly and humanely cared for.

We take our responsibility for the management of America’s wild horse and burro heritage
seriously. We have recently instituted several changes to strengthen the program across the
board. These changes include increased onsite compliance inspections of untitled animals,
improving the system for tracking the animals after they are gathered from the rangelands,
increased employee training, and increased management oversight and accountability.


                                              18
                                                                             APPENDIX 5
                                                                               Page 2 of 5

                                                                                             2

These and other improvements in the Wild Horse and Burro Program are already underway.
These actions reflect our commitment to protect wild horses and burros on the public lands,
protect the lands themseives, and ensure that all wild horses and burros receive sensitive and
humane treatment. The animals and the public deserve no less. We appreciate your help in
identifying areas where we can improve this important program.

Questions to our response may be addressed to Tom Pogacnik at the Wild Horse and Burro
National Program Office at 702-785-6583 or Gwen Midgette, BLM Audit Liaison Officer, at
202-452-7739.




Attachment




                                             19
                                                                                    APPENDIX 5
                                                                                      Page 3 of 5


             RESPONSE TO DRAFT AUDIT REPORT
               MANAGEMENT OF HERD LEVELS,
WILD HORSE AND BURRO PROGRAM, BUREAU OF LAND MANAGEMENT
                 (Report No. C-IN-BLM-004-96b)


Recommendation 1. Implement a plan which details methods and costs for achieving appropriate
management levels for wiid horses and burros on public lands. At a minimum., the plan should
address:

       - The development of a removal policy, supported by ticient data, which wili remove excess
wild horses and burros without adversely afkting the health of herds that remain on public lands.

        - The use of birthrate controls, including an aggressive pian to complete testing and obtain
expedited approval for the contraceptive vaccine, as a method to reduce future excess wild horse and
burro popuiations.

Comment: Concur. In order to achieve a proper balance between the needs of the herds and other
public land resources, appropriate management levels (AML’s) must be reached. Although AML’s
have yet to be achieved on all herd management areas, most herds in Colorado, Idaho, Montana, New
Mexico, and Oregon are at or near the desired population. Progress toward achieving AML’s has
been slowed by statutory provisions and funding constraints that have limited the options for dealing
with unadoptable animals as acknowledged in the Office of Inspector General’s (OIG) draft audit
report. However, since 1992, the Bureau of Land Management (BLM) has successfully nkntained
a schedule for achieving AML’s, Westside, by the year 2001.

In 1992, the BLM adopted a Strategic Plan for Management of Wild Horses and Burros on Public
Lands, which set out a g-year action plan to achieve AML’s. At that time, the total AML was 28,527
and the actual population was estimated to be 54,804 (192 percent of the total AML or 92 percent
excess). Since 1992, while operating under the Strategic Plan, the BLM has steadily reduced the
percentage of excess animals each year. At the same time, the total AML has declined from 28,527
to 26,912 due to the effects of prolonged drought on vegetation conditions in portions of the Great
Basin. Current population is estimated to be at 42,138 (56 percent excess). The BLM expects to
main& the schedule set out in the Strategic Plan and to achieve AML’s on all public lands by 2001.

The BLM’s Wild Horse and Burro Emergency Evaluation Team reviewed the procedures for
establishing AML’s and made recommendations which included that AML’s be established using the
best available data with full disclosure and public participation through the National Environmental
Policy Act, that AML’s be defined for herd management areas as a single number with an acceptable
range, and that the Strategic Plan be reviewed and updated to include these recommendations.

We agree that it is desirable to gain a better scientific understanding of any effects the policy of
selective removal may have on the health of the herds. We support, and are actively pursuing,
additional research on this topic. However. it is important to understand the reasons why selective
                                                20
                                                                               APPENDIX 5
                                                                                 Page 4 of 5

                                                                                               2




                                                                                         .




The BLM has recently announced the formation of a new Wild Horse and Burro Advisory Boar& and
plans to have members identified by the end of the fiscal year. This Board will assist the,BEM in
meeting this recommendation.                                                             _:
                                             21
                                                                                      APPENDIX 5
                                                                                        Page 5 of 5

                                                                                                         3


s.
Establish requirements to collect and analyze comprehensive data on the health
of the wiid horse and burro herds on public lands and ensure that this information is considered in
making Program decisions.

Comment: Concur. The BLM monitors the rangeiand vegetation conditions within all herd
management areas. It has been our observation that the health of the animals is dire&y related to the
health of the land that they occupy and use. Our rangeland monitoring data are used to help establish
AML’s. In addition our wild Horse and Burro Specialists monitor the condition ofthe wild horses
and burros, both during their visits to the herd management areas and again at the time the animals
are gathered to prevent overpopulation of the available habitat.

We believe that monitoring of animal condition is important and that our field observations should
be recorded in a consistent and retrievable manner through a data base. The BLM’s Wdd Horse and
Burro Emergency Evaluation Team also made this recommendation;

At present, the age and gender of all animals gathered are routinely recorded during gathering
operations. In addition to this, the Group Manager for Rangeland, Soils, Water, and Wild Horses
and Butros has the responsibility to develop a team, including external scientific advisors, to establish
m for collecting and recording data regarding the physical condition of the wild horses and
burros handled during gathering operations. This could include ident@ing the condition class&&on
ofthe animal listing physical defects or injuries, and periodically drawing blood for genetic analysis.
All of the data would be collected in a manner that allows for entry into a data base, allows easy
access and retrieval, and fGlitates scientific analysis. The BLM anticipates these procedures-will be
                                                                                                 . .
in place for the FY 1998 gathering season.
                                                                                             ;    ..: .: _.
Finally, we would like to clarity that the selective removal policy had not been implemented on the
Chloride Herd Management Area prior to the Wild Horse and Burro Technical Program Review
performed in Utah in May 1994. Therefore, the selective removal policy could not have been the
cause of genetic defects to this herd. The reference in the Technical Program Review dealt with
maintaining genetic diversity in small herd areas.




                                                 22
                                                                           APPENDIX 6



              STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
       Reference               Status                   Action Reauired

          1              Management concurs;      Provide an action
                         additional information   plan that includes target
                         needed.                  dates and titles of officials
                                                  responsible for
                                                  implementation.

                         Resolved; not            No further response to the
                         implemented              Office of Inspector General
                                                  is required. The recommendation
                                                  will be referred to the Assistant
                                                  Secretary for Policy, Management
                                                  and Budget for tracking of
                                                  implementation.




                                            23
               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents to:                                Calling:


                   Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800-424-508 1 or
Mail Stop 5341                                         (202) 208-5300
Washington, D.C. 20240


                                                       TDD for hearing impaired
                                                       (202) 208-2420 or
                                                       l-800-354-0996


                   Outside the Continental United States


                                  Caribbean Retion

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Retion

U.S. Department of the Interior                        (700) 550-7428 or
Office of Inspector General                            COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flares Street
Suite 807, PDN Building
Agana, Guam 96910
,I
.
:
.
:
:
.
.
:
m
:
